DODIG-2012-115                             August 2, 2012





     Improved Oversight, but No Invoice Reviews and 

      Potential Antideficiency Act Violation May Have 

     Occurred on the Kuwait Observer Controller Team 

                        Task Orders

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7466.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
ACOR                          Alternate Contracting Officer’s Representative
COR                           Contracting Officer’s Representative
DCAA                          Defense Contract Audit Agency
DCMA                          Defense Contract Management Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
FMR                           Financial Management Regulation
FOCUS                         Field Operations Customer Support
KOCT                          Kuwait Observer Controller Team
PEO STRI                      U.S Army Program Executive Office for Simulation,
                                   Training, and Instrumentation
QASP                          Quality Assurance Surveillance Plan
RTSC                          Raytheon Technical Services Company
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                            ARLINGTON, VIRGINIA 22202-4704 


                                                                            August 2, 20 12

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Improved Oversight, but No Invoice Reviews and Potential Antideficiency
         Act Violation May Have Occurred on the Kuwait Observer Controller Team
         Task Orders (Report No. DODIG-20 12-115)

We are providing this report for your review and comment. U.S. Army Program
Executive Office for Simulation, Training, and Instrumentation officials did not review
contractor interim invoices, totaling $192.7 million, for the task orders, and Defense
Contract Audit Agency auditors did not audit the costs claimed on the invoices. U.S.
Army Program Executive Office for Simulation, Training, and Instrumentation personnel
reimbursed the contractor for approximately $70,000 in questioned direct travel costs.
This is the third in a series of audits relating to the Warfighter Field Operations Customer
Support contract.

We considered management comments on a draft of this repot1 when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
Comments fi·om the Office of the Assistant Secretary ofthe Army (Financial
Management and Comptroller) were responsive. Comments from the Principal Assistant
Responsible for Contracting, Program Executive Office for Simulation, Training, and
Instrumentation; the Resident Auditor, Raytheon Network Centric Systems, Defense
Contract Audit Agency; and the Resident Auditor, Raytheon Integrated Defense Systems
Resident Office, Defense Contract Audit Agency, were partially responsive.
Additionally, as a result of management comments, we revised Recommendation A.l.a
directed to the Principal Assistant Responsible for Contracting, Program Executive
Office for Simulation, Training, and Instmmentation. Therefore, we request additional
comments for recommendations listed in the Recommendations Table on page ii by
September 4, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audacm@dodig.mil. Comments provided to the final report must be marked and pottion­
marked, as appropriate, in accordance with DoD Manual5200.0 I. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Tim Moore at (703) 604-9068 (DSN 664-9068).


                                          a:aEZL c1.'t<J~a~
                                          (J~a';: eline L. Wicecarver
                                              Ass stant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2012-115 (Project No. D2011-D000AS-0287.000)               August 2, 2012


              Results in Brief: Improved Oversight, but No
              Invoice Reviews and Potential Antideficiency
              Act Violation May Have Occurred on the
              Kuwait Observer Controller Team
              Task Orders
                                                      Further, the PEO STRI contracting officer
What We Did                                           potentially violated the Antideficiency Act by
This is the third in a series of audits on the        obligating Iraq Security Forces funds on the
Warfighter Field Operations and Customer              KOCT task order. This occurred because the
Support contract. We determined whether the           PEO STRI contracting officer did not verify the
U.S. Army Program Executive Office for                purpose of the funding before obligating those
Simulation, Training, and Instrumentation             funds to the task order.
(PEO STRI) obtained fair and reasonable prices
and appropriately developed surveillance and          What We Recommend
oversight processes and procedures for the            The Principal Assistant Responsible for
Kuwait Observer Controller Team (KOCT) task           Contracting, PEO STRI should have the
orders, valued at $195.2 million.                     contracting officer review claimed airfare costs
                                                      to determine whether the costs are allowable
What We Found                                         and update the KOCT QASP to require program
On the KOCT task orders, PEO STRI                     and in-country oversight personnel to review
contracting personnel negotiated fair and             prime and subcontractor interim invoices to
reasonable prices for goods and services and          verify that costs claimed are necessary and
generally developed appropriate contractor            reasonable. The Resident Auditor, Raytheon
surveillance and oversight processes and              Network Centric System Resident Office,
procedures. However, PEO STRI contracting             DCAA, should develop and implement
and oversight personnel did not review                procedures to verify that the Army does not
contractor interim invoices, totaling                 reimburse the contractor for potentially
$192.7 million, on the KOCT task orders               unallowable costs.
because the contracting officer used a quality
assurance surveillance plan (QASP) that did not       Management Comments and
include procedures for reviewing contractor           Our Response
invoices. Additionally, at the time of our            Comments from the Office of the Assistant
review, Defense Contract Audit Agency                 Secretary of the Army (Financial Management
(DCAA) auditors had not yet audited the costs         and Comptroller) were responsive. Comments
claimed on the interim invoices because DCAA          from the Principal Assistant Responsible for
had not performed an incurred cost audit of the       Contracting, PEO STRI; Resident Auditor,
contractor since 2005. As a result, PEO STRI          Raytheon Network Centric Systems, Defense
paid approximately $70,000 in questioned direct       Contract Audit Agency; and Resident Auditor,
travel costs and may be paying for other              Raytheon Integrated Defense Systems Resident
unreasonable and unallowable supplies and             Office, Defense Contract Audit Agency, were
services on the KOCT task orders.                     partially responsive. Please see the
                                                      recommendations table on the back of this page.


                                                  i
Report No. DODIG-2012-115 (Project No. D2011-D000AS-0287.000)     August 2, 2012

Recommendations Table

          Management                    Recommendations    No Additional Comments
                                       Requiring Comment          Required
Office of the Assistant Secretary   B.1
of the Army (Financial
Management and Comptroller)

Principal Assistant Responsible     A.1.a, A.1.b, A.1.c    B.2
for Contracting, Program
Executive Office for Simulation,
Training, and Instrumentation

Resident Auditor, Raytheon          A.2.a, A.2.b
Network Centric Systems
Resident Office, Defense
Contract Audit Agency
Resident Auditor, Raytheon          A.3
Integrated Defense Systems
Resident Office, Defense
Contract Audit Agency

Please provide comments by September 4, 2012.




                                            ii
Table of Contents 


Introduction                                                                        1     


      Objectives                                                                    1     

      Background                                                                    1     

      Review of Internal Controls                                                   3


Finding A. U.S. Army Program Executive Office for Simulation, Training, and 

Instrumentation (PEO STRI) Did Not Review Interim Invoices and Defense 

Contract Audit Agency Has Not Audited Reimbursed Costs                        4


      Negotiated Prices Were Fair and Reasonable                                  4

      Quality Assurance Surveillance Plan Improved for Kuwait Observer Controller 

             Team Task Orders                                                     4

      Oversight of Invoices Needed and Incurred Cost Audits Not Performed         6

      Contractor Reimbursed for Questioned Direct Travel Costs                    8

      Conclusion                                                                10        

      Management Comments on the Finding and Our Response                       10 

      Recommendations, Management Comments, and Our Response                    11 


Finding B. PEO STRI Potentially Violated the Antideficiency Act                    17


      Noncompliance With the Purpose Statute May Lead to an Antideficiency Act     

             Violation                                                             17 

      PEO STRI Potentially Violated the Purpose Statute                            17 

      Contracting Officer Did Not Verify the Purpose of Funds                      18 

      Conclusion                                                                   19     

      PEO STRI Issued a Memorandum to Report the Potential Violation               20 

      Recommendations, Management Comments, and Our Response                       20 


Appendix
     Scope and Methodology                                                         23

            Use of Computer Processed Data                                         24 

            Prior Coverage                                                         24     


Management Comments

      Assistant Secretary of the Army (Financial Management and Comptroller) 

             Comments                                                              25 

      Assistant Secretary of the Army (Acquisition, Logistics, and Technology) 

             Comments                                                              26 

      Defense Contract Audit Agency Comments                                       40

Introduction
Objectives
Our audit objectives were to determine whether the U.S. Army Program Executive Office
for Simulation, Training, and Instrumentation (PEO STRI) obtained fair and reasonable
prices for goods and services on the Kuwait Observer Controller Team (KOCT) task
orders and appropriately developed contractor surveillance and oversight processes and
procedures for the task orders. This is the third in a series of audits relating to the
Warfighter Field Operations Customer Support (FOCUS) contract. See the appendix for
a discussion of the scope and methodology and prior audit coverage.

Background
PEO STRI officials awarded contract W900KK-07-D-0001, the Warfighter FOCUS
contract, on June 6, 2007, to Raytheon Technical Services Company (RTSC), with a total
contract ceiling price of approximately $11.2 billion.

Contract Requirements
PEO STRI officials awarded the Warfighter FOCUS contract to provide operations,
maintenance, systems integration, and engineering support services to the U.S. Army for
the following three types of training:

   x   Live Training – training involving real people operating real systems,
   x   Virtual Training – training involving real people operating simulated systems, and
   x   Constructive Training – training involving simulated people operating simulated
       systems.
RTSC, as the prime contractor for the Warfighter FOCUS contract, led a team of more
than 120 subcontractors known as the Warrior Training Alliance. RTSC created the
Warrior Training Alliance to assist in executing all training efforts issued under the
Warfighter FOCUS contract.

Contract Structure
PEO STRI officials awarded the Warfighter FOCUS indefinite-delivery, indefinite-
quantity contract with a ceiling of approximately $11.2 billion; approximately
$1.2 billion of the contract was for specified work. PEO STRI contracting personnel
stated that the remaining $10 billion was for unidentified training efforts to be
incorporated into task orders.

Kuwait Observer Controller Team Task Order
On July 1, 2009, PEO STRI personnel issued cost-plus-fixed-fee task order 138 against
the Warfighter FOCUS contract to provide service support for the KOCT training effort.
The period of performance included a base year and two option years, to be exercised
through task orders 238 and 338. The total estimated cost of the cost-plus-fixed-fee task

                                            1

orders was approximately $195.2 million. PEO STRI officials awarded the KOCT task
orders to RTSC, whose subcontractor, MPRI1, accounted for 83 percent of the total
estimated costs of the task orders.

The KOCT task orders provided assistance in planning for unit training support and
training related tasks within the U.S. Central Command for U.S. military and coalition
forces combat, combat support, and combat service support elements. The U.S. Army
Central Command developed the training requirements for the task orders. Training
included individual, collective, leader, and staff training in accordance with current or
emerging U.S. Army Joint Doctrine and Mission Training Plans. The KOCT contractor
delivered targeted training and participated in operating the Army training support
system. Specifically, the KOCT contractor developed, sustained, and adapted training
and training support capabilities. These training activities included, but were not limited
to gunnery exercises, mission rehearsal exercises, situation training exercises, live fire
exercises, and force-on-force training.

The PEO STRI contracting officer assigned primary oversight responsibilities for the task
orders to two DoD personnel (an alternate contracting officer’s representative [ACOR]
and a technical oversight representative). The ACOR inspected training exercises and
communicated daily with the contracting officer, and the technical oversight
representative monitored contractor performance, served as a technical contact for the
contractor, and relayed problems to the ACOR.

Payment Review Process for a Cost-Reimbursement Contract
Under cost-reimbursement contracts, contractors submit interim invoices2 to obtain
provisionally approved payments that are subject to retroactive adjustment upon the
determination of the allowability of costs claimed. Defense Federal Acquisition
Regulation Supplement (DFARS) 242.803(b), “Auditor Receipt of Voucher,” and DoD
Directive 5105.36, “Defense Contract Audit Agency,” January 4, 20103, designate
contract auditors from the Defense Contract Audit Agency (DCAA) as the authorized
representatives of the contracting officer to approve interim invoices for provisional
payment and send them to the disbursing office for payment.

According to the Defense Contingency Contracting Officer’s Representative (COR)
Handbook, CORs can review, but not approve, invoices for payment. The Handbook
states that CORs should review billing statements thoroughly and on time and CORs
must ensure the Government gets what it paid for. A COR’s approval of an invoice
implies that, (to the best of the COR’s knowledge,) the nature, type, and quality of effort
or materials being expended are in accordance with the progress of work on the contract.


1
  MPRI is now known as “L-3 MPRI,” but we will refer to them as MPRI throughout this report. 

2
  This report uses the term “interim invoice” when referring to contractor-submitted vouchers for payment 

on cost-reimbursable contracts. 

3
  DoD Directive 5105.36 states that DCAA should perform all necessary contract audits for DoD and 

provide accounting and financial advisory services regarding contracts and subcontracts to all DoD 

Components responsible for procurement and administration.


                                                     2

Although CORs may review invoices, DCAA has the sole authority for verifying claimed
costs and approving interim payment requests on cost-reimbursement contracts. DCAA
auditors generally receive interim invoices from contractors through the Wide Area
Workflow system and approve or reject the interim invoices based on an evaluation of
sampled interim invoices. DCAA auditors perform the interim invoice evaluations as a
nonaudit service; therefore, these evaluations are not intended to identify unallowable
costs claimed by the contractor that would be found when performing substantive testing.
Rather, DCAA auditors perform an administrative evaluation of interim invoices to verify
that the amounts claimed are not more than the amount due to the contractor in
accordance with the contract terms before approval of provisional payment.

The amount DCAA auditors provisionally approve on interim invoices is subject to an
audit of the contractor’s records before the final settlement under the contract, in
accordance with Federal Acquisition Regulation (FAR) clause 52.216-7, “Allowable Cost
and Payment.” The KOCT task orders contained clause 52.216-7, which states in part:

               [a]t any time or times before final payment, the Contracting Officer
               may have the Contractor’s invoices or vouchers and statements of cost
               audited. Any payment may be reduced by amounts found by the
               Contracting Officer not to constitute allowable costs or adjusted for
               prior overpayments or underpayments.

In accordance with DCAA’s policy, contract auditors perform annual incurred cost audits
to determine the overall acceptability of the contractor’s claimed costs with respect to
reasonableness, allocability, and compliance with applicable cost limitations or
exclusions as stated in the contract or the FAR. Incurred cost audits are usually
performed on a contractor-wide basis, as opposed to on individual contracts. The DCAA
Contract Audit Manual requires DCAA auditors to perform sufficient substantive testing,
including transaction testing and analytical procedures, based on a risk assessment to
provide an opinion on the allowability of the claimed costs.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MCIP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses associated with the contract billing and oversight of the KOCT task orders.
Specifically, PEO STRI contracting personnel did not include procedures for the ACOR
to review contractor interim invoices in the KOCT Quality Assurance Surveillance Plan
(QASP). Additionally, PEO STRI contracting personnel did not verify the purpose of
contract funding before obligating funding to the task order. We will provide a copy of
the report to the senior official responsible for internal controls at PEO STRI and the
Department of the Army.




                                                3

Finding A. PEO STRI Did Not Review Interim
Invoices and DCAA Has Not Audited
Reimbursed Costs
On the KOCT task orders, PEO STRI contracting personnel negotiated fair and
reasonable prices for goods and services and generally developed appropriate contractor
surveillance and oversight processes and procedures. Specifically, PEO STRI personnel
incorporated lessons learned from the DoD Office of Inspector General Report No. 2011-
113, “Improved Pricing and Oversight Needed for the Afghan Air Force Pilot and
English Language Training Task Order,” September 30, 2011, and updated the QASP for
the KOCT task orders to include specific performance metrics, surveillance procedures,
and the frequency of oversight visits.

However, PEO STRI contracting and oversight personnel did not review contractor
interim invoices, totaling $192.7 million, on the KOCT task orders before provisionally
paying the interim invoices. This occurred because the PEO STRI contracting officer
used a QASP that did not include procedures for reviewing contractor invoices.
Additionally, DCAA only performs administrative evaluations of interim invoices before
approving them for payment. At the time of our review, DCAA auditors had not yet
audited the costs claimed on the interim invoices to determine whether the costs were
allowable; DCAA had not performed an incurred cost audit at RTSC since 2005 because
of its backlog of pending incurred cost audits. As a result, PEO STRI paid approximately
$70,000 in questioned direct travel costs and may be paying for other unreasonable and
unallowable supplies and services on the KOCT task orders.

Negotiated Prices Were Fair and Reasonable
FAR 15.402, “Pricing Policy,” requires Government contracting officers to purchase
supplies and services at fair and reasonable prices. The contracting officer is responsible
for evaluating the reasonableness of the offered prices and analyzing the proposal to
ensure that the final agreed-to price is fair and reasonable. The PEO STRI contracting
officer used a technical evaluation, a cost realism analysis, and field pricing assistance to
evaluate the reasonableness of the proposal for the KOCT task orders in accordance with
the FAR. PEO STRI contracting personnel negotiated the cost estimate for the KOCT
task orders with the prime and subcontractor and appropriately determined that the
resulting price for the KOCT effort was fair and reasonable based on their analyses.

QASP Improved for KOCT Task Orders
PEO STRI personnel generally developed appropriate contractor surveillance and
oversight processes and procedures for the KOCT task orders. Specifically, PEO STRI
personnel incorporated lessons learned from the DoD Office of Inspector General Report
No. 2011-113, “Improved Pricing and Oversight Needed for the Afghan Air Force Pilot
and English Language Training Task Order,” September 30, 2011, and updated the
QASP for the KOCT task orders to include surveillance procedures, performance metrics,
and the frequency of oversight visits.
                                              4

Previous KOCT QASPs
PEO STRI and Defense Contract Management Agency (DCMA) personnel initially
developed three oversight plans that supported the KOCT task orders, but the oversight
plans were not adequate because they did not provide guidance on specific surveillance
procedures or performance metrics. Additionally, two of the three plans did not specify
the frequency of oversight. FAR part 46, “Quality Assurance,” states that QASPs should
specify all work requiring surveillance and the method of surveillance.

PEO STRI contracting personnel created an overall QASP for the basic
Warfighter FOCUS indefinite-delivery, indefinite-quantity contract that stated the
procuring contracting officer was ultimately responsible for the QASP. The QASP
provided five acceptable surveillance methods but only provided basic definitions of each
method and did not provide guidance on when each method would be appropriate to use.
The Warfighter FOCUS QASP did not distinguish between ratings in the performance
metrics, or specify the frequency of oversight visits. The Warfighter FOCUS QASP did
not contain any reference to the KOCT task orders. Additionally, DCMA-Kuwait
personnel developed an oversight plan they referred to as an “audit record,” to provide
oversight for the KOCT effort that specified the work requiring surveillance and included
minimal oversight metrics. However, the audit record did not provide methods of
surveillance or state how frequently DCMA personnel should perform oversight.
Further, PEO STRI personnel developed a QASP specific to the KOCT task orders that
defined the work requiring surveillance and the frequency of oversight, but did not
specify the appropriate methods of surveillance or define performance metrics.

Updated QASP for the KOCT Task Orders
On September 26, 2011, PEO STRI officials created an updated QASP for the KOCT
task orders similar to the new QASP for the Afghan Air Force training task order that
specified the work requiring surveillance. The updated QASP included specific
                                    performance objectives requiring surveillance with
    The updated QASP included       references to the KOCT statement of work. For
       specific performance         example, the surveillance checklist included a step
        objectives requiring        for the ACOR to evaluate a performance objective
  surveillance with references to   from the KOCT statement of work that required the
   the KOCT statement of work.      contractor to respond to contingency operational
                                    missions during time sensitive, mission essential
tasks. The updated QASP for the KOCT task orders also provided five surveillance
procedures.

The updated QASP for the KOCT task orders provided specific definitions of ratings on a
scale of “excellent” to “unsatisfactory.” The surveillance checklist further defined
descriptive metrics as they related to each statement of work performance objective. For
example, one performance objective was to evaluate new contractor training. The
updated QASP described “excellent” performance for this objective as the contractor
identifying and meeting new training and support tasks within 15 days. The updated
QASP described “unsatisfactory” performance as the contractor failing to execute new


                                            5

training and support tasks within 60 days from Government approval. The performance
metrics were unique for each performance objective requiring surveillance.

Additionally, the updated QASP for the KOCT task orders specified the frequency of
surveillance that was appropriate for the KOCT task orders. For example, the updated
QASP stated that the ACOR should review contractor self reporting, conduct periodic
inspections and monthly observations using the surveillance checklist, and rely on
customer input for oversight as they receive it. The updated QASP for the KOCT task
orders also stated that PEO STRI should hold program management reviews quarterly.

Oversight of Invoices Needed and Incurred Cost Audits
Not Performed
Although PEO STRI contracting officials took steps to improve contract oversight,
contracting and oversight personnel did not review contractor interim invoices, totaling
$192.7 million, on the KOCT task orders before provisionally paying the interim
invoices. Additionally, at the time of our review, DCAA auditors had not yet audited the
costs claimed on the interim invoices to determine whether the costs were allowable.

No Contracting Office Invoice Reviews
PEO STRI contracting and oversight personnel did not review interim invoices on the
KOCT task orders. According to the contracting officer’s delegation and appointment
letter, the ACOR was responsible for notifying the contracting officer of any
inconsistencies between invoiced charges and
performance. However, a former KOCT ACOR                    The ACOR and technical
stated that the ACOR and technical oversight            oversight  representative had no
representative had no involvement in reviewing              involvement  in reviewing
interim invoices before DoD paid the contractor.          interim invoices before DoD
                                                               paid the contractor.
Therefore, PEO STRI oversight personnel did not
review interim invoices to verify that services billed to the task order were actually
performed and were reasonable. As a result, DoD may be paying costs for supplies and
services that were not incurred or reasonable and necessary to perform the task orders.

The PEO STRI contracting officer used a firm-fixed-price task order QASP to develop
the QASP for the cost-plus-fixed-fee KOCT task orders and did not include procedures
for reviewing contractor interim invoices in the QASP. FAR 16.301-3(a)(4)(ii),
“Cost-Reimbursement Contracts-Limitations,” states that a cost-reimbursement contract
may only be used when appropriate Government surveillance will provide reasonable
assurance that the contractor uses efficient methods and effective cost controls.
Therefore, the QASP should include procedures that require the ACOR to review prime
and subcontractor interim invoices and verify that the supplies and were reasonable and
necessary to perform the task orders and whether DoD had received the supplies and
services.




                                            6

No DCAA Audit of Reimbursed Costs on the KOCT Task Orders
At the time of our review, DCAA auditors had not yet audited the costs reimbursed on
the interim invoices. According to DFARS 242.803(b) and DoD Directive 5105.36,
contract auditors at DCAA are the authorized representatives of the contracting officer to
approve interim invoices for provisional payment and send them to the disbursing office
for payment. FAR 42.101, “Contract Audit Responsibilities,” states that DCAA is
generally the Government audit organization responsible for auditing the acceptability of
the contractor’s incurred costs. DCAA has the sole authority for approving interim
payment requests on cost-reimbursement contracts and auditing claimed costs to
determine allowability.

The DCAA Resident Office at Raytheon Network Centric Systems began performing
interim invoice reviews on RTSC interim invoices in February 20114. However, when
approving interim invoices for provisional payment, DCAA guidance only requires
DCAA auditors to perform an administrative evaluation of interim invoices to verify that
the amounts claimed are not more than the amount due to the contractor in accordance
with the contract terms. The interim invoice evaluations are not intended to identify
unallowable costs claimed by the contractor that would be found when performing
substantive testing.

In accordance with DCAA’s policy, contract auditors perform annual incurred cost audits
to determine the overall acceptability of the contractor’s claimed costs with respect to
reasonableness, allocability, and compliance with applicable cost limitations or
exclusions as stated in the contract or the FAR. Incurred cost audits are usually
performed on a contractor-wide basis, as opposed to on individual contracts. The DCAA
Contract Audit Manual requires DCAA auditors to perform sufficient substantive testing,
including transaction testing and analytical procedures, based on a risk assessment to
provide an opinion on the allowability of the claimed costs.

The DCAA Resident Office at Raytheon Integrated Defense Systems was responsible for
performing incurred cost audits on RTSC. However, at the time of our review, DCAA
                                     auditors had not performed any incurred cost audits
       DCAA auditors had not         on the direct or indirect costs charged to the KOCT
    performed any incurred cost      task orders since RTSC started charging costs to the
   audits on the direct or indirect  KOCT task orders in 2009 because of DCAA’s
           costs charged to          backlog of pending incurred cost audits. The last
       the KOCT task orders…         incurred cost audit that DCAA auditors completed
                                     on RTSC was for FY 2005 incurred costs. As a
result of DCAA’s backlog of pending incurred cost audits, DCAA had not had an
opportunity to identify any unallowable or questioned costs reimbursed on the KOCT
task orders, and PEO STRI may be paying for unallowable supplies and services.




4
 Before February 2011, DCAA authorized RTSC to directly submit invoices to the payment office in
accordance with DFARS 242.803(b)(c).

                                                  7

We examined interim invoices submitted by RTSC for provisional payment on the KOCT
task orders to evaluate contract pricing. As of August 11, 2011, RTSC submitted
37 interim invoices, with a total value of $118.9 million5. Of the 37 interim invoices, we
reviewed documentation for 1 RTSC invoice (RTSC invoice 90890718, valued at
approximately $5.4 million) for task order 238 to determine whether the costs claimed on
that invoice were supported. The prime and subcontractor provided appropriate
documentation to support the costs on this invoice, including time sheets, pay statements,
and receipts. However, we questioned airfare costs claimed by the prime contractor and
subsequently reviewed all airfare costs claimed by the prime contractor on the KOCT
task orders.

Contractor Reimbursed for Questioned Direct Travel
Costs
PEO STRI reimbursed the contractor for approximately $70,000 in questioned direct
travel costs on interim invoices for services on the KOCT task orders. Specifically, the
contractor improperly billed and PEO STRI reimbursed the contractor for first and
business class airline accommodations. The contractor used its own travel policy that did
not address a special contract provision in the KOCT task orders to justify the upgraded
airfare costs on interim invoices.

The KOCT task orders contained a travel clause that PEO STRI contracting officials
stated was intended to limit the contractor’s travel to costs that would be incurred by a
Government employee. Task order 138 contained PEO STRI clause 5152.232-5007,
“Reimbursement of Travel, Per Diem, and Special Material Costs,” September 2008,
which states that the contractor agreed to use the lowest cost mode of travel appropriate
for the requirements of the mission. Specifically, the contractor agreed to use coach or
similar accommodations for air travel to the extent consistent with the successful and
economical accomplishment of the mission for which the travel was being performed.
Additionally, FAR 31.205-46(b), “Travel Costs,” states that costs in excess of “the lowest
priced airfare available to the contractor during normal business hours” are unallowable,6
with some exceptions, including if those accommodations require travel during
unreasonable hours. The FAR states that applicable exceptions must be documented and
justified for airfare costs in excess of the standard airfare or lowest priced airfare
available to the contractor to be allowable.




5
  As of April 9, 2012, RTSC submitted and was paid for 56 interim invoices with a total value of 

$192.7 million.

6
  Before January 2010, FAR 31.205-46(b) stated that costs in excess of “the lowest customary standard, 

coach, or equivalent airfare offered during normal business hours” were unallowable, with some

exceptions, including if those accommodations required travel during unreasonable hours. 


                                                    8

Contractor personnel claimed costs for first or business class airline accommodations on
15 of the 71 expense reports that the contractor used to support airfare costs claimed on
                                       the KOCT task orders. The direct travel costs for
   Contractor personnel claimed        airfare charged to the KOCT task orders on the
   costs for first or business class   15 expense reports totaled approximately $70,000.
     airline accommodations on         For example, an RTSC employee initially booked
    15 of the 71 expense reports       an economy class ticket from Kuwait to
     that the contractor used to       Washington, D.C. to Orlando, Florida, and later
  support airfare costs claimed on upgraded those flights to business and first class at
       the KOCT task orders.           an additional cost of $3,323. Fifty percent of this
                                       cost was allocable to a different task order and
RTSC claimed the remaining 50 percent, or $1,661.50, on an invoice for the KOCT task
orders. In another example, the employee claimed $8,700 on an invoice for the KOCT
task orders for a roundtrip ticket from Orlando, Florida, to Kuwait that included business
class accommodations. Alternatively, RTSC claimed costs for an economy class ticket
from Orlando, Florida to Kuwait on another invoice that only cost $2,422. Several of the
expense reports contained multiple flights with economy class, business class, and first
class segments, and the contractor did not segregate these costs. Therefore, the
contractor’s documentation was not sufficient to allow us to calculate the portion of the
approximately $70,000 that may be unallowable.

The contractor used its own travel policy to justify the upgraded airfare costs on interim
invoices. The contractor stated that they used a requirement in their travel policy
authorizing business class accommodations for flights over 10 hours as the metric in
determining whether the FAR exception for “travel during unreasonable hours” applied.
However, the contractor’s travel policy was not appropriate to justify first or business
class accommodations because the KOCT task orders contained a special provision in
which the contractor agreed to use coach or similar accommodations for air travel.
Further, the contractor provided a letter written by the DCMA Defense Corporate
Executive in 2004 as justification for claiming the upgraded airfare costs. However, the
letter specifically stated that the DCMA Defense Corporate Executive did not agree that
flight times of more than 10 hours justified an exception to the FAR requirement to use
standard or coach airfare. Instead, the letter stated that the company must comply with
the FAR and individually document and justify the applicable conditions to be
reimbursed for the business class costs. Additionally, the DCMA Defense Corporate
Executive wrote the letter 5 years before PEO STRI awarded the KOCT task orders and
did not address specific contract provisions regarding travel costs.

In some cases, the contractor did not provide written documentation justifying the
upgraded accommodations as required by FAR 31.205-46(b). When the contractor did
provide documentation, it consisted of a checklist of the conditions listed in the letter
from the DCMA Defense Corporate Executive, including whether the travel was during
unreasonable hours, as cited in FAR 31.205-46(b). The letter from the DCMA DCE
stated that the reason that travel was required during unreasonable hours must be clearly
presented on the employee’s expense account or other document that is subject to a
review or audit by the Government. However, the contractor circled “yes” next to each

                                             9

of the conditions, without further documentation or justification. Therefore, the costs
claimed for first and business class airline accommodations were potentially unallowable
under the KOCT task orders.

PEO STRI contracting officials should review the claimed airfare costs under the KOCT
task orders and comply with the procedures in FAR subpart 42.8,”Disallowance of
Costs,” if the contracting officer finds any part of the claimed costs unallowable. If the
contracting officer finds the claimed costs for first and business class airline
accommodations allowable, they should provide justification as to why the costs were
allowable. Further, PEO STRI contracting officials should require RTSC to obtain
written consent from the contracting officer to use airline accommodations other than
economy class and inform all employees claiming travel expenses on the KOCT task
orders of the requirement. DCAA auditors should develop and implement procedures to
review interim invoices to verify that the Army does not continue to reimburse the
contractor for potentially unallowable direct costs. Additionally, DCAA auditors should
consider direct travel costs a high-risk area when reviewing interim invoices or
performing incurred cost audits at RTSC.

Conclusion
Proper oversight of service contracts is essential for the Army to receive supplies and
services in a cost effective and timely manner. Cost-reimbursement contracts require
more in-depth reviews of interim invoices to ensure that costs relate to progress under the
contract. The lack of interim invoice reviews for the KOCT task orders, valued at
$195.2 million, increases the risk that DoD funds are not used efficiently. ACORs are in
the best position to assess the reasonableness of costs and expenditures on invoices.
Therefore, PEO STRI personnel should have included interim invoice reviews in the
QASP for the KOCT task orders to ensure that the Government is only paying for
necessary supplies and services. Additionally, DCAA is responsible for determining the
allowability for the contractor’s claimed costs. Therefore, DCAA should take steps to
verify that questioned costs claimed by RTSC are appropriately evaluated during incurred
cost audits.

Management Comments on the Finding and
Our Response
Defense Contract Audit Agency Comments
The Regional Director, Northeastern Region, Defense Contract Audit Agency, agreed
and stated that DCAA has not audited RTSC incurred costs since 2005. However, he
explained that there is not a direct relationship between payment on interim vouchers and
incurred cost audits. The Regional Director stated that interim vouchers are paid as
services or supplies are rendered by the contractor and incurred cost audits are performed
after completion of the contractor’s fiscal year. He explained that the completion of an
incurred cost audit would not have prevented the payment of unallowable costs on
interim invoices because payment would have occurred well in advance of the incurred
cost audit.

                                            10

Our Response
Our finding does not make a direct correlation between PEO STRI paying questioned
travel costs and DCAA not having performed an incurred cost audit since 2005. We
concluded that PEO STRI paid approximately $70,000 in questioned travel costs because
PEO STRI contracting and oversight personnel did not review contractor interim
invoices, DCAA only performs administrative evaluations of interim invoices before
approving them for payment, and DCAA had not performed an incurred cost audit at
RTSC since 2005.

Recommendations, Management Comments, and
Our Response
Revised Recommendation
As a result of management comments, we revised draft report Recommendation A.1.a to
clarify the actions needed to review monthly charges on the Kuwait Observer Controller
Team task order.

A.1. We recommend that the Principal Assistant Responsible for Contracting,
Program Executive Office for Simulation, Training and Instrumentation, require
the procuring contracting officer to:

           a. Update the Kuwait Observer Controller Team task order quality
assurance surveillance plan to require in-country oversight personnel review prime
and subcontractor invoices before payment, or within 30 days of receipt of a proper
invoice, and determine whether the supplies and services invoiced were necessary
and reasonable to perform the task order and whether DoD received the supplies
and services.

Assistant Secretary of Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), responded for the Principal
Assistant Responsible for Contracting, PEO STRI and disagreed with our
recommendation. He stated that Wide Area Workflow is a DoD specific system for
electronic acceptance and invoicing for DoD contracts. The Deputy explained that Wide
Area Workflow was mandated by the 2001 Defense Authorization Act and implemented
with DFARS clause 252.232.7003, “E-invoicing.” He stated that invoices requiring
DCAA review before payment are automatically routed to the cognizant auditor by the
Wide Area Workflow system. The Deputy also stated that invoices of contractors with
“direct bill” authority bypass DCAA and are routed directly to the paying office. The
Deputy for Acquisition and System Management, Office of the Assistant Secretary of the
Army (Acquisition, Logistics, and Technology), stated that the Office of the Under
Secretary of Defense issued a memorandum, “Approving Payments Under
Cost-Reimbursement, Time-and-Materials, and Labor-Hour Contracts,” April 14, 2008,
that stated for cost-reimbursement, time-and-materials, and labor hour contracts, DCAA

                                          11

has the sole authority for verifying claimed cost and approving interim payment requests.
He explained that even though the memorandum stated that CORs may review
contractor’s billing as part of their surveillance, there is no requirement to withhold a
payment until a contracting officer or COR reviews the invoice to determine whether the
charges were incurred and the supplies and services invoiced were necessary and
reasonable. The Deputy for Acquisition and System Management, Office of the Assistant
Secretary of the Army (Acquisition, Logistics, and Technology), stated that the current
Warfighter FOCUS policy is for the project director to review invoices and billing back-
up before task order close out. He explained that evaluating invoices and billings a year
or longer after completion of the work complicates the process; therefore, PEO STRI
officials revised the KOCT QASP to better define the frequency of the project director’s
review of billing information.

The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), stated that PEO STRI requires the
contractor to submit a “request for resources” for supplies, services, or travel before
incurring the expenditure for these task orders. He stated that this process allows the
Government to review the expenditures before they are made to determine if they are
necessary and reasonable to perform the effort.

Our Response
The comments from the Deputy for Acquisition and System Management, Office of the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology), were partially
responsive. As a result of the comments, we revised draft report Recommendation A.1.a
to clarify that in-country oversight personnel should review prime and subcontractor
invoices before payment or within 30 days of receipt of a proper invoice to determine
whether the supplies and services invoiced were necessary and reasonable to perform the
task order and whether DoD received the supplies and services. While contracting
officers and CORs are not required to review contractor invoices before payment, the
Office of Federal Procurement Policy, “A Guide to Best Practices for Contract
Administration,” October 1994, states that the CORs function as the “eyes and ears” of
the contracting officer by monitoring technical performance and reporting actual or
potential problems to the contracting officer. The guide also states that CORs are in the
best position to assess the reasonableness of costs and expenditures on vouchers and
invoices. The guide goes on to state that CORs should conduct an in-depth review of
invoices under cost reimbursement contracts to ensure that costs were not incurred
prematurely and that costs related to the contract.

Additionally, in October 2011, PEO STRI officials stated that the “request for resources”
tool was PEO STRI’s validation that material purchases were within the scope of the task
order, that the funds would be used for the task order, and that funds were available.
PEO STRI officials also stated that the “request for resources” is a task order oversight
tool used for tracking purposes; not for verifying task order costs. PEO STRI officials
explained that the tool gives the Warfighter FOCUS project director and the customer
oversight of the KOCT program. Therefore, we request that the Principal Assistant
Responsible for Contracting, PEO STRI, reconsider his position and provide comments

                                           12

in response to the final report on revised Recommendation A.1.a. Additionally, we
request that the Principal Assistant Responsible for Contracting, PEO STRI, provide a
date for completing the proposed actions.

          b. Review the claimed airfare costs under the Kuwait Observer
Controller Team task orders to determine whether the costs are allowable and
either:

                       (1)    Follow the procedures in Federal Acquisition
Regulation Subpart 42.8, “Disallowance of Costs,” if the procuring contracting
officer finds the claimed costs unallowable or

                      (2)     If the procuring contracting officer finds the claimed
costs for first and business class accommodations allowable, provide justification as
to why the costs were allowable.

Assistant Secretary of Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), responded for the Principal
Assistant Responsible for Contracting, PEO STRI and agreed with our recommendations.
He stated that charging the Government for business class airfare is not in accordance
with the Warfighter FOCUS contract. The Deputy explained that the Warfighter FOCUS
contract states that when it is necessary to use air or rail travel, the contractor agrees to
use coach, tourist class, or similar accommodations to the extent that it is economical and
successful in accomplishing the mission. He stated that the procuring contracting officer
has requested separate audits from DCAA and RTSC to review all Warfighter FOCUS
Southwest Asia travel. The Deputy also stated that the purpose of these audits was to
identify all instances where RTSC used business or first class airfare to travel and to
recoup those funds for the Government. The Deputy for Acquisition and System
Management, Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology), stated that once RTSC completes their internal audit, PEO STRI will
forward that information to DCAA for verification through the DCAA formal audit
process.

Our Response
The comments from Deputy for Acquisition and System Management, Office of the
Assistant Secretary of the Army (Acquisition, Logistics, and Technology), were
responsive. We request that the Principal Assistant Responsible for Contracting,
PEO STRI, provide the final results of the RTSC and DCAA review and any actions
taken by PEO STRI contracting officials based on the results of the audits. Additionally,
we request that the Principal Assistant Responsible for Contracting, PEO STRI, provide a
date for completing the proposed actions.




                                             13

            c. Require the contractor to obtain written consent from the contracting
officer to use accommodations other than economy class and inform all employees
claiming travel expenses on the KOCT task orders of the requirement.

Assistant Secretary of Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), responded for the Principal
Assistant Responsible for Contracting, PEO STRI, and did not address Recommendation
A.1.c.

Management Comments Required
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), did not provide comments for
Recommendation A.1.c. We request that the Principal Assistant Responsible for
Contracting, PEO STRI, provide comments in response to the final report on
Recommendation A.1.c.

A.2. We recommend that the Resident Auditor, Raytheon Network Centric Systems
Resident Office, Defense Contract Audit Agency:

           a. Coordinate with the U.S. Army Program Executive Office for
Simulation, Training, and Instrumentation contracting officer to develop and
implement effective procedures to review cost vouchers submitted under contract
W900KK-07-D-0001 and associated task orders to verify that the Army does not
continue to reimburse the contractor for potentially unallowable direct costs.

Defense Contract Audit Agency Comments
The Regional Director, Northeastern Region, Defense Contract Audit Agency, responded
for the Resident Auditor, Raytheon Network Centric Systems Resident Office, Defense
Contract Audit Agency, and partially agreed with our recommendation. He stated
that DCAA agreed with reviewing direct travel costs on contract W900KK-07-D-0001
and the associated task orders to verify that the Army does not continue to reimburse the
contractor for potentially unallowable costs. However, the Regional Director stated that
DCAA determined a review of individual cost vouchers is not the most effective way to
implement the recommendation. He stated that doing a review of individual cost
vouchers would cause untimely review cycles and not allow for payment to the contractor
in a timely manner. The Regional Director stated that the Resident Auditor, Integrated
Defense Systems Resident Office, will establish an incurred cost support package for FY
2011 to test direct travel costs. He stated that the contractor submitted their FY 2011
incurred cost claim on June 30, 2012, and that DCAA will use the submission to draw a
sample of direct travel costs to test for compliance with FAR 31, “Contract Cost
Principals and Procedures,” and contract terms. He noted that the audit office will
coordinate with PEO STRI before starting the audit to identify any contract terms related
to direct travel. The Regional Director explained that issues identified in the direct cost
testing will be brought to the attention of PEO STRI and DCAA will issue a
                                            14

Form 1, “Notice of Contract Costs Suspended and/or Disapproved,” for any billed
unallowable direct costs.

Our Response
The comments from the Regional Director, Northeastern Region, Defense Contract Audit
Agency, were partially responsive. The Regional Director’s comments did not address
actions DCAA will take to review cost vouchers before FY 2011 and during future fiscal
years under contract W900KK-07-0001 and the associated task orders. The Regional
Director’s comments only addressed actions DCAA planned to take during FY 2011.
Additionally, the comments did not contain a date of when the proposed actions will be
completed. Therefore, we are requesting that the Resident Auditor, Raytheon Network
Centric Systems Resident Office, Defense Contract Audit Agency, provide additional
comments in response to the final report on Recommendation A.2.a.

          b. Include direct travel costs as a high risk area when reviewing cost
vouchers on contracts awarded to Raytheon Technical Services Company.

Defense Contract Audit Agency Comments
The Regional Director, Northeastern Region, Defense Contract Audit Agency, responded
for the Resident Auditor, Raytheon Network Centric Systems Resident Office, Defense
Contract Audit Agency, and partially agreed with our recommendation. He referenced
DCAA planned actions for Recommendation A.2.a. Additionally, he stated that the
assessment of direct travel costs as high risk will be made once the DCAA auditors have
completed testing procedures to determine the allowability, allocability, and
reasonableness of the costs. The Regional Director explained that the DoD OIG finding
on one voucher does not provide enough evidence to assess the costs as high risk. He
added that if the audit testing proves that the contractor billed significant
unallowable direct travel costs, the auditor will assess the travel costs as high risk.

Our Response
The comments from the Regional Director, Northeastern Region, Defense Contract Audit
Agency, were partially responsive. The comments did not contain a date for completing
the proposed actions and did not define what DCAA would consider as significant
unallowable direct travel costs. Therefore, we are requesting that the Resident Auditor,
Raytheon Network Centric Systems Resident Office, Defense Contract Audit Agency,
provide additional comments in response to the final report on Recommendation A.2.b.

A.3. We recommend that the Resident Auditor, Raytheon Integrated Defense
Systems Resident Office, Defense Contract Audit Agency, consider direct travel
costs as a high risk area when planning and performing audit assignments on
Raytheon Technical Services Company.

Defense Contract Audit Agency Comments
The Regional Director, Northeastern Region, Defense Contract Audit Agency, responded
for the Resident Auditor, Raytheon Integrated Defense Systems Resident Office, Defense

                                          15

Contract Audit Agency, and partially agreed with our recommendation. He referenced
DCAA planned actions for Recommendation A.2.a and A.2.b. Additionally, the
Regional Director stated that a determination of direct travel risk will be made after the
DCAA auditors have completed testing procedures to determine the allowability,
allocability, and reasonableness of the costs. He explained that if the audit testing proves
that the contractor billed significant unallowable direct travel costs, the auditor will
assess the travel cost as high risk.

Our Response
The comments from the Regional Director, Northeastern Region, Defense Contract Audit
Agency, were partially responsive. The comments did not contain a date for completing
the proposed actions and did not define what DCAA would consider as significant
unallowable direct travel costs. Therefore, we are requesting that the Resident Auditor,
Raytheon Integrated Defense Systems Resident Office, Defense Contract Audit Agency,
provide additional comments in response to the final report on Recommendation A.3.




                                             16

Finding B. PEO STRI Potentially Violated the
Antideficiency Act
The PEO STRI contracting officer obligated approximately $9.7 million of FY 2008 Iraq
Security Forces funds on the KOCT task order when the task order did not provide
training or assistance to the Iraq Security Forces. This occurred because the PEO STRI
contracting officer did not verify the purpose of the funding before obligating funding to
the task order. As a result, the PEO STRI contracting officer used funds for a purpose
other than intended by law and potentially violated the Antideficiency Act.

Noncompliance With the Purpose Statute May Lead to
an Antideficiency Act Violation
The Antideficiency Act, prescribed in sections 1341, 1342, and 1517 of title 31, United
States Code, prohibits obligations and expenditures in excess of or before an
appropriation. Additionally, section 1301, title 31, United States Code, known as the
Purpose Statute, requires that appropriations be used only for the purpose that Congress
intended. These statutory provisions enforce the Constitutional budgetary powers
entrusted to Congress with respect to the purpose, time, and amount of expenditures
made by the Federal Government. Noncompliance with section 1301, the Purpose
Statute, may lead to an Antideficiency Act violation.

PEO STRI Potentially Violated the Purpose Statute
The PEO STRI contracting officer obligated approximately $9.7 million of Iraq Security
Forces funds on task order 138. However, Congress required Iraq Security Forces funds
to be used to support the Iraq Security Forces, and the task order did not provide
assistance to the security forces of Iraq.

Iraq Security Forces Fund
Congress established the Iraq Security Forces fund to enable the Iraq Security Forces to
maintain internal security with police and defense forces, while building foundational
capabilities for the Iraqi military forces to provide external defense before the U.S. forces
withdraw from Iraq. DoD used the Iraq Security Forces fund to train, equip, and
maintain all elements of the Iraqi Security Forces, including the Iraqi Army, Air Force,
and Police Force.

Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
section 1512, “Iraq Security Forces Fund,” January 28, 2008, required that Iraq Security
Forces funds only be used to provide assistance to the security forces of Iraq.
Additionally, the FY 2008 National Defense Authorization Act stated that the type of
assistance provided may include the procurement of equipment, supplies, services,
training, facility and infrastructure repair, renovation, and construction. Further, the
FY 2008 National Defense Authorization Act required that the funds be obligated by
September 30, 2009.



                                             17

Contract Obligations
On July 1, 2009, the PEO STRI contracting officer awarded task order 138 to RTSC for
the KOCT training effort. The task order required the contractor to support all training
and training related tasks at specifically designated times and locations within the
U.S. Central Command area of responsibility. However, the task order did not reference
or require any type of training or assistance be provided to the Iraq Security Forces.
Additionally, PEO STRI program personnel stated that Iraq Security Forces were never
trained on task order 138.

The PEO STRI contracting officer obligated FY 2008 Iraqi Security Forces funds to
task order 138 to allow work to continue on the KOCT task order. According to e-mails
provided by PEO STRI contracting personnel, the task order customer, U.S. Army
Central Command, allocated all of its FY 2009 funding to other requirements and did not
have funding available to fund the continuation of work on the KOCT task order.
PEO STRI program and contracting personnel stated that funding had to be obligated to
the KOCT task order in order for work to continue on the base year of the task order.
PEO STRI program and contracting personnel stated that, in accordance with
FAR clause 52.232-22, “Limitation of Funds,” if funding was not obligated on
task order 138, RTSC would be required to cease all work on the task order.
FAR 52.232-22(b) requires that the contractor only perform work on the contract up to
the point that does not exceed the total amount allotted by the Government to the
contract. The PEO STRI contracting officer stated that she obligated approximately
$9.7 million of funding to the task order to ensure continuity of services on the task order.
She believed the funding used was Operations and Maintenance; however, the funding
was actually Iraq Security Forces funding, and, therefore, not permitted to be obligated to
the task order.

Task order 138 did not provide training or assistance to the security forces of Iraq;
                                      therefore, Iraq Security Forces funds should not
  Task order 138 did not provide      have been obligated on task order 138. By
    training or assistance to the     obligating $9.7 million of FY 2008 Iraq Security
       security forces of Iraq;       Forces funds on task order 138, the PEO STRI
  therefore, Iraq Security Forces     contracting officer potentially violated the purpose
     funds should not have been       statute, and, consequently, may have potentially
    obligated on task order 138.      violated the Antideficiency Act.

Contracting Officer Did Not Verify the Purpose of Funds
The PEO STRI contracting officer did not verify the purpose of the funding before
obligating it to the task order. Instead, the contracting officer relied on a funding
spreadsheet that PEO STRI contracting and program personnel used to track and obligate
funding on the entire Warfighter FOCUS contract.

PEO STRI program and contracting personnel developed a spreadsheet to track all
funding that PEO STRI received from customers and obligated on the Warfighter
FOCUS contract. The funding spreadsheet did not specify the purpose of the funds or
whether there were any restrictions on the use of funds. The funding spreadsheet listed

                                             18

only the funding type (for example, Operations and Maintenance or Global War on
Terror), which corresponded to a military interdepartmental purchase request number and
a specific job order number. The funding spreadsheet incorrectly listed Iraq Security
Forces funds as operations and maintenance funds.

Additionally, during discussions with PEO STRI finance and contracting officials, they
stated they were not aware of the restrictions placed on the use of Iraq Security Forces
funds when the funds were obligated to the KOCT task order. Finance and contracting
officials stated they believed that Iraq Security Forces funds could be used to fund all
contingency training operations, not only to provide assistance and training to the
Security Forces of Iraq.

PEO STRI contracting officials did not have processes and procedures in place that
required the contracting officer to verify the purpose of funding before obligating the
funds to a contract. DoD Regulation 7000.14-R “DoD Financial Management
Regulation” (FMR), volume 14, chapter 1, paragraph 01205 G “Administrative Control
of Funds,” requires that officials responsible for Government funds must ensure that
decisions to obligate funds comply with the provisions of the Antideficieny Act by
careful review and examination of the facts before obligating the funds. The PEO STRI
contracting officer should have reviewed the type of funding that she was obligating to
the task order to make sure that it was being used for its required purpose. By not
verifying the funding type and relying on an incorrect spreadsheet, the PEO STRI
contracting officer obligated the wrong type of funds on the KOCT task order and
potentially violated the Antideficiency Act. Consequently, PEO STRI contracting
officials should develop and execute written processes and procedures that require the
contracting officer to review and examine all funds before obligating funds to a contract
to ensure that all obligations comply with provisions of the Antideficiency Act, as
required by DoD FMR volume 14, chapter 1, “Administrative Control of Funds.”

Conclusion
The PEO STRI contracting officer potentially violated the Purpose Statute by
inappropriately obligating approximately $9.7 million of Iraq Security Forces funds on
task order 138 when the task order did not provide assistance to the security forces of
Iraq. By using funds for other than the purpose identified by law, the PEO STRI
contracting officer potentially violated the Antideficiency Act. Further, PEO STRI
officials awarded the Warfighter FOCUS contract with a ceiling price of approximately
$11.2 billion to provide operations, maintenance, systems integration, and engineering
support services to the U.S. Army for live, virtual, and constructive training. To support
the Warfighter FOCUS contract, PEO STRI contracting officers obligated several types
of funding to the contract. Therefore, it is critical that the PEO STRI contracting officer
identify and verify the type of funding being obligated to the Warfighter FOCUS contract
to ensure that the funding is being used for its required purpose.




                                            19

PEO STRI Issued a Memorandum to Report the Potential
Violation
On February 9, 2012, the Program Executive Officer for Simulation, Training and
Instrumentation, U.S. Army, issued a memorandum titled, “Potential Antideficiency Act
Violation,” to the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology). The Program Executive Officer issued the memorandum in accordance
with DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume 14,
chapter 3, paragraph 030101 “Preliminary Reviews of Potential Violations.” DoD FMR
volume 14, chapter 3 requires that within 2 weeks of discovering a potential
Antideficiency Act violation, the activity concerned should report the potential violation
through command channels to the applicable Office of the Assistant Secretary of the
Military Department for Financial Management and Comptroller7. The memorandum
notified Department of Army officials that the DoD OIG audit team discovered an
inappropriate obligation of Iraq Security Forces funds, valued at approximately
$9.7 million, used to fund 1 year of the KOCT task order. The memo stated that the
improper obligation of the funds resulted in an alleged Antideficiency Act violation.
According to the U.S. Army Antideficiency Act Program Manager, the Office of the
Assistant Secretary of the Army (Financial Management and Comptroller) initiated a
preliminary review of the potential Antideficiency Act violation on April 1, 2012. The
preliminary review was completed on May 24, 2012.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Office of the Assistant Secretary of the Army
(Financial Management and Comptroller), complete the preliminary review of the
potential Antideficiency Act violation within 90 days as required by DoD Regulation
7000.14-R, Financial Management Regulation, volume 14, chapter 3, “Preliminary
Reviews of Potential Violations,” and provide the results of the preliminary
investigation to the DoD Office of Inspector General.

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Deputy Assistant Secretary of the Army (Financial Operations), responded for the
Office of the Assistant Secretary of the Army (Financial Management and Comptroller),
and agreed with our recommendation. He stated that the Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology) completed a preliminary
investigation on May 24, 2012, and determined that there was no longer a deficiency in
either the Iraq Security Forces funds or the Overseas Contingency Operation
appropriations and that the potential violations have been avoided. The Deputy explained
that accounts have been adjusted and corrective actions are awaiting a review for legal
sufficiency. He also stated that the Office of the Deputy Assistant Secretary of the Army


7
 For the Department of the Army, the applicable office is the Office of the Assistant Secretary of the Army
(Financial Management and Comptroller).

                                                    20

(Financial Operations) will provide the DoD OIG with the closure memorandum when it
is signed.

Our Response
The comments from the Deputy Assistant Secretary of the Army (Financial Operations)
were responsive. We are requesting that the Office of the Assistant Secretary of the
Army (Financial Management and Comptroller) provide our office with a copy of the
closure memorandum that outlines the accounts that have been adjusted and that details
how the potential violations were avoided.

B.2. We recommend that the Principal Assistant Responsible for Contracting,
Program Executive Office for Simulation, Training, and Instrumentation, develop
and execute written processes and procedures that require the contracting officer to
review and examine all funds before obligating funds to a contract to ensure that all
obligations comply with provisions of the Antideficiency Act, as required by DoD
FMR volume 14, chapter 1, “Administrative Control of Funds.”

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), responded for the Principal
Assistant Responsible for Contracting, PEO STRI and agreed with our recommendation.
He stated that PEO STRI Acquisition Instruction AI-014, “Purchase Request Routing and
Processing for Contract Actions,” dated May 27, 2010, outlines the written processes and
procedures, including the roles and responsibilities of the funds certifying official at PEO
STRI. The Deputy stated that all purchase requests are reviewed by three financial
officers before providing the funds to the contracting officer to be placed on contract. He
stated that the program analysts check the purchase request for appropriation, time,
purpose, and amount to prevent any misuse of funds. The Deputy explained that the
budget analysis and certifying official both review the purchase request to ensure it
includes the correct data before forwarding it on to the contracting officer. He stated that
the contracting officer then receives and reviews the purchase request to ensure it
includes correct data, appropriate attachments, and proper approvals before assigning it to
a contracting specialist for execution.

The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology), explained that PEO STRI initiated
steps to ensure that future errors are avoided, including reviewing fund types and problem
areas with certifying officials, providing fiscal law training to all PEO STRI resource
managers, and incorporating Antideficiency Act avoidance topics in business manager’s
weekly meetings. The Deputy also stated that an after action review of the incident was
conducted in February 2012 and that PEO STRI is developing an “Introduction to Fiscal
Law” class that will be provided to all personnel.




                                            21

Our Response
The comments from the Deputy Assistant Secretary of the Army (Financial Operations)
were responsive, and no additional comments are required.




                                         22

Appendix. Scope and Methodology
We conducted this performance audit from September 2011 through May 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This is the third in a series of audits on contract W900KK-07-D-0001, the Warfighter
FOCUS contract. We gathered available Warfighter FOCUS contract documentation
covering the period from June 2007 through February 2012. We focused our review to
determine whether PEO STRI obtained fair and reasonable prices for goods and services
on the KOCT task orders and appropriately developed contractor surveillance and
oversight processes and procedures for the task orders. We reviewed the United States
Code, the FAR, the DFARS, the Federal Travel Regulation, the Joint Travel Regulation,
the DoD FMR, the Department of State Standardized Regulation, the DCAA Contract
Audit Manual, and the DCMA Guidebook. Additionally, we conducted site visits and
interviewed personnel at the following locations:

   x   Program Executive Office for Simulation, Training, and Instrumentation,
       Orlando, Florida;
   x   Raytheon Technical Services Company, Orlando, Florida;
   x   Raytheon Technical Services Company, Dulles, Virginia;
   x   Raytheon Financial Shared Services, Plano, Texas;
   x   MPRI, Alexandria, Virginia;
   x   Defense Contract Audit Agency, Dulles, Virginia;
   x   Defense Contract Audit Agency, Plano, Texas; and
   x   Defense Contract Audit Agency, Falls Church, Virginia.

Additionally, we interviewed Defense Contract Management Agency personnel from
Dulles, Virginia, and Woburn, Massachusetts.

The audit team examined interim invoices submitted by RTSC for provisional payment
on the KOCT task orders 138, 238, and 338. As of August 11, 2011, RTSC submitted
37 interim invoices, with a total value of $118.9 million. Of the 37 interim invoices, the
audit team reviewed documentation for 1 RTSC invoice (RTSC invoice 90890718,
valued at approximately $5.4 million) for task order 238 to determine whether the costs
claimed on that invoice were supported. During that review, we questioned airfare costs
claimed by the prime contractor and subsequently reviewed all airfare costs claimed by
the prime contractor on all the invoices submitted for the KOCT task orders, as of
April 9, 2012.

We reviewed contract file documentation for the KOCT task orders, including contract
and subcontractor proposals; Government proposal reviews; price negotiation

                                            23

memoranda; oversight documents; DCMA memoranda; DCAA memoranda and reports;
contractor and subcontractor invoices and supporting documentation; and e-mail
correspondence from June 2007 through February 2012 for the KOCT task orders with an
estimated value of $195.2 million.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a Web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout DoD. We used documents retrieved from Electronic Document Access to
review the Warfighter FOCUS basic contract background. We compared the contract
documentation obtained from Electronic Document Access to the contract documentation
in the contract file at PEO STRI and verified that the documentation we obtained from
Electronic Document Access was accurate. The Electronic Document Access Web site
was sufficiently reliable for the purpose of obtaining background information on the
Warfighter FOCUS basic contract.

We also relied on computer-processed data from Wide Area Workflow to perform this
audit. Wide Area Workflow is a secure Web-based system for electronic invoicing,
receipt and acceptance. We retrieved interim invoices from the Wide Area Workflow
system and verified the data against interim invoices and supporting documentation that
the contractor provided. We determined that data obtained from Wide Area Workflow
was accurate and sufficiently reliable to accomplish our audit objectives.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) issued
two reports discussing the Warfighter FOCUS contract. Unrestricted DoD IG reports can
be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD Inspector General Report No. D-2011-113, “Improved Pricing and Oversight
Needed for the Afghan Air Force Pilot and English Language Training Task Order,”
September 30, 2011

DoD Inspector General Report No. D-2011-066, “Incomplete Contract Files for
Southwest Asia Task Orders on the Warfighter Field Operations Customer Support
Contract,” June 1, 2011




                                           24

Assistant Secretary of the Army (Financial Management and
Comptroller) Comments


                                     DEPARTMENT OF THE ARMY
                               OFFICE OF TliE ASSISTANT SECRETARY OF TliE ARMY
                                  FINANCIAl. MANAGEMENT ANO COMPTROLLEJI
                                              109 ARMY PENTAGON
                                          WASHINGTON DC 20310-0109




     MEMORANDUM THRU Auditor General, Department of the Army, 3101 Park Center
     Drive, Alexandria, Virginia 22302-1596

     FOR Inspector General, Department of Defense, Acquisition and Contract Management,
     4800 Mark Center Drive, Alexandria, Virginia 22350-1500

      SUBJECT: Improved Oversight, but No Invoice Reviews and Potential Antideficiency Act
      Violation May Have Occurred on the Kuwait Observer Controller Team Task Orders
      {Project No. D2011-DOOOAS-Q287 .000)


      1. We appreciate the opportunity to provide comments on the subject report.

      2. The audit asserts that the U.S. Army Program Executive Office for Simulation, Training,
      and Instrumentation {PEO STRI) potentially violated the Purpose Statute by
      inappropriately obligating Iraq Security Forces Funds (ISFF) and Overseas Contingency
      Operation {OCO) funds in violation of 31 U.S.C. 1301a {the Purpose Statute).

      3. According to Recommendation 8 .1 , the Office of the Assistant Secretary of the Army
      (Financial Management and Comptroller) was asked to ensure completion of the
      preliminary review of the potential Antideficiency Act violation and provide the results of the
      preliminary investigation to the DoD Office of Inspector General.

      4. Army concurs. The Assistant Secretary of the Army {Acquisition, Logistics and
      Technology) completed a preliminary investigation on May 24. 2012 that determined that
      there is no longer a deficiency in either the ISFF or the OCO appropriations and that the
      potential violations have been avoided. Accounts have been adjusted and the corrective
      actions are awaiting a review for legal sufficiency. We will provide your office with the
      closure memorandum when it is signed.




                                                                   

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments



                                     DEPARTMENT OF THE ARMY
                               OffiCEOFlliE ASSISTANTSECRETAAV OFT"'Ii ARMY
                                   ACQUICITION LOOISncS AND TECHNOLOGY
                                            103 ARMY PENTliGON
                                           WASHINGTON DC 20310



       SAAL-SSS


       ~INSPECTOR GENERAL, DEPARTMENT OF DEFENSE­
       _ . . . . . 400 ARMY NAVY DRIVE, ARUNGTON VA 22202-4704

       SUBJECT: Response to Department of Defense Office of Inspector General (DoDIG)
       Draft Report, Improved Oversight, bU1 No Invoice Reviews and Potential Antideliciency
       Act Violation May Have Occurred on the Kuwait Observer Controller Team Task Orders,
       Project No. 02011-DOOOAS-0287.000 dated 30 May 12

       1. The DoDIG requested that the Principal Assistant Responsible for Contracting
       (PARC) at Program Executive Office for Simulation, Training and Instrumentation (PEO
       STRI) provide comments on the Draft Report, Project No. 0.2011-0000AS-0287 .000.

       2. Thank you for the opportunity to review and comment on the DoDIG Draft Report on
       PEO STRI potential violation of the Antideficiency Act. The DoDIG Auditors provided
       four recommendations for the PARC at PEO STRI to improve oversi~t of service
       contracts and ensure that all obligations comply with provisions of the Antideficlency
       Act.
       3. I am providing the Official Army Position on behalf of the Assistant Secretary of the
       Army (Acquisition, logistics and Technology) (ASA(ALT)) based on the enclosed
       comments provided by the PARC at PEO STAI. The ASA(ALT) has reviewed the
       OoDJG .recommendations in the Draft Report, and concurs with 1he response provided
       by the PEO STRI PARC on the OoDIG recommendations. The ASA(ALT) has no
       objections to the draft report and recommends it be made final and published.

                                                                         ore-mail:




       Enol                                    _/~EENE'-G
                                                    Brig     r General (P), GS
                                                     Deputy for Acquisition
                                                       and Systems Management




                                                                   

        Final Report 

         Reference





      Revised
      Recommendation
      A.1.a






SUI3JIOCT: Response to Department of Defense Oftice of Inspector General (DoDJG) Discussion
[)mfl for Project No. D2011-DOOOAS-0287.000. "Improved Ovcrsig.ht But No Invoice Reviews
and Potential Antideflciency /\ct Violation on the Kuwait Observer COJl!roller Team Task
Orders.". dated 30 May 2012


de/ermine 11-hether the chw·ges were incw·1·ed nmllhe mpplie.~ liiUI services inPoi£WIIt•erc
Jrece.muy uml reuWililil>!.:'". The current WlT policy is Jar the Project Director (PD} to review
the invoices m1d billing back-up prior to the eiTort close out. We rec.:ngnizc that evaluati11g
inYoi~~ und billings a year or more after the fact complicates the process and have therefore
decided to revise the Quality Assurance Survci\bmce Plru1 (QASP) to bclter define the frequency
of the PD's reviews of the billing intom1ation. To help facilitate this review, the Deputy Program
f\-1anager for Field Operations has revised the WFF Award l'ee Plnn lO incentivize Raytheon
Technical Service Company (RTSC) to pmvide faster nnd more ''user-friendly" infom1ation on all
cost and time and material efforts (including billing back-up).

PEO STRI does take an additional step on this Task Order (T.O.) h>' requiring RTSC to ~ubmit a
·'Request for Resources'' in writing for supplies. services, or travel prior to any expenditures.
This process allows the Bovernment to review 1]1e exrenditures. including the estimated costs,
betorc they are made. to determine if they arc ucc~s~·w:v and reasonable lo pe1:(om1 the effort.


])oOIG Ret:ommcmlatiun A.l.b and c;

       b. R~,·icw I he daimed air:fiwe cosls vnder /he K11tt'ail Ubserw•r Conlmller Team ta.vk
onlers lu tie/ermine ,ftcllr~r the Uisls are allowa!J/c and eilher:

            (/) Fo/10\r the {Jrocedwes in Fh!eral .-1c<{Ui.l·ition Regu/cj/ion Subporl-11.8.
··Dil·af!mt"!l/Wi' 'lfCo.m ··!(Ilie wocuring col7/mclir1g r!(Jirer.finds 1he claimed co.vls wra/JowcJb!e
or

         11) If I he procuring conwacting f!tficl•r{indv rhe claimed c;osl.l/i>r.fir.\·1 and busir1e,1·s
das5 m·commodatiuns allowable. prm·ideju.\·J!/icalion as 10 why /he cosls \\'ere allmwhle.

         c. R<'lfllh·~ rile <"tJ1l/racwr 10 olnainw,·itlcn comenr.fi·om !he conlracli111!, <!fficer ttJ use
liCL"IJIJ/IIIOdmion.1 oilier !han eco1wmy class and inform all empl<;yee,\· claiming /rare/ expemes on
111~ KOC T /ask orr!er.< 1!(/lw requiremem.




PEO STIU Rcsjlonsc: Concur.

I'EO STRI agrees with th~ DoD-fGs t"t>conHnendminn. Charging the govtnunent l'or business
class air fare is rot in accordance with the WFF conlract. Clause H.l8 (5252.132-9509
REli'vtBURSEMENT OF TRAVEL PER. DIEM. AND SPECIAL 1vi.A. TERIAL COSTS I states in
pam~raph (c)(3) that. "The contractor agrees. in the performance of necessary lrdvel, to use the
lnwest cost modt= wmmcnsuratc with the requirements of the mission as set for\h in the bnsic
contract and in accordance with good traf1ic manngement prindpk~- When it is nccessmy to use




                                                                  

SUBJECT: Response to Department of Defense Office oflnspector General (DoDIG) Discussion
Dralt for Project No. D20ll-DOOOAS-D2R7.000. "Improved Oversight But No Invoice Reviews
and Po!c!ntial Antideficiencv Act Violmion on the Kuwait Observer Controller Team Task
Orders.". dmecl 30 Muy 201.2


air or rail tra\'el. the contractor agrees to use coach. tourist ciHss. or similar accommodations to
the extent wnsistcnt with the succ.:ssful and economicol accomplishment of the mission for
which the travel i~ heing performed.

Based on the preliminary infonnation provided to Pl30 STRI during the IG's exit interview on 07
February :w I 2. the PCO requested separate audits from both DCAA and RTSC to look at all WFF
Southwest Asin travel. The purpose of the audit reqttcsl was to identify all instances ~itere ll
RTSC. Warrior Training Alliance (WT A) travder utilized a business or first class airfare and to
recoup those monies for the government. l{fSC hns idcntitied a preliminary set of seven invoices
that have busin~~s dass travel associated with them. Once RTSC's intcrnnl audit is completed.
PEO STRI will forward that inlonnation co n CAA for verification in DCAA's limnal audit.
[Note: RTSC did not identify any travel claims where the traveler required any special
accommodations necessitating a busines~ class fare.)


DoDIG Recommendation B.2: We            reerm1111~nd rlutf   the Principal A.1·sistan1 Re.1ponsihlejiJ1·
Cmrtructin~ ullhe f>roJ!.'YIIIlExt:r:ulive q(frce for Simulalirm. 1l·c1illing, and Ins/rumen/a/ion
clet·l!fop mid e.mcme rrrillen pwcesses and pt·ut·edun:s tltal require 1/n: comrucling oOicer 111
n•1·ie1r amle.wmine all.finuls l>f!./im! oi>ligaling.fimd.~ ;o u <'on/rucl tu en.mn' rhm all obligations
cwnp(!' tri/h prot·i.l-iotls <!!'the .1nlide/idcnr:J' ikl, a1· requir·ed by DoD FMR 1'11/ume 1-1.   ~·hllpler   f.
··Adminislrtllive C(II1/I'IJI r!(Funtl.l·. ··

I'EO STIU Response: Cum;ur 1\ith comments.

PEO STRI agrees that the DoD Financial :'vtanagcmcnt Regulotions requires that proper processes
and procedures are in plac~ to examine all obligations beti.Jn: the funds ate added to a contrncl.
PEO STRJ Acquisition Instruction Al-014 ... Purchase Kequest Routing and Processing for
Contract Actions.. !.Attachment I) outlines the written processes and proce<.fttrcs includin~ the
roles and responsibilities of the funds Certifying Ofticial at PFO STRI. It should be nut~:<.lthat
the Contracting Officer at !'EO STRl is not the funds Certifying Otlicial. In fact, all purchase
requests arc reviewed by three ~pecially tmined riuandal officials prior to providing the funds to
the Contracting Officer to be placed on contract. The Program Analysts (PAs) check the
Purchase Request (PR\ fur appropriation. time. purpose. and amount to prevent any misuse of
ft~nds: enters tho: approptiate Progrnm Job Order Number (JON). F.lentent urR~~outcc (EOR). nnd
DOD Activity Address Code (DODAAC) in !he .. Comments.. section tor the Hudget Analysts
(BAs) who review the PR to cnsLtr~ it includes rite correct dma. The 13A's enter the approprinte
line(s) of uccounting. JON.!lnd funding nmount in the .. Line Item Detail Funding'· section hascd
on the information provided hy the PA: checl-s that flmds arc appropriate for the nllotmcnl(s)
provided and Ol'uilublc balunces ere sufficient to cover the estimated cost of the procurement.
And fina lly. till: Ccrti(ving Officio! rcYicws the I'R. ccrtitics funds arc avnilable and appl'l1Jlriate
lnr use in fultillment of tile IL>C]llt'S\ed proeurement. and approves ur rejects the I'R. The




                                                                    

SUBJECT: Response to Depanmem of Defense Office of Inspector Genc:ral (DoD I G) Discussion
Dmft for Project No. 02011-DOOOAS-0287.00(). "Improved Oversight But No Invoice Reviews
<1ml PLJtcntial Antitldicit:ncy Act Violation on the Kuwait Observer Cot1trollcr Team Task
Orders.", d~ted 30 May 2012


Contmcting Oftlcer then   receive~ nr~d ··eviews rhe PR in PD2 to ensure it incl~uc:s correct data,
uppropriule nttuchments. and proper approvals prior to workload assignment to a Contract Specialist
fur <:~t:cutiou. PEO STRI is/has taken the Jollowinl! steps to ensure that future errors are avoided:

     a. An After Action Review (AAR) on this incident was conducted in mid-February 2012.

   b. Increased emphasis on the contract action tracking tool in order to provide early
identification of requirements which must be on contract prior lo the end ofthe Jiscal year.

  c. We have reinforced cmphnsi> on an Integrated Product Team (IPT) approach to service
contracts tD include participation from Resource Managers.

  d. A thorough review was conducted with all Certifying Officials to review the fund types and
potential problem areas.

  e. Fiscal Law train in:,:   WtlS   provided to all PCO STRl Resource Managers, not just Certi t'ying
Ollicials.

  f. .1\D1\ avoidance topics have heen incorporated in discussions during Business Manager's
weekly meeting with assigned Financial Analysts.

     g. An "Introduction to Fiscal Law··_class is currently llllderdevelopment.to be pwvided to all
per~onnel.   regardless of discipline.

2.                                       se should be directed to




Fncl




                                                                    

                                   DEPARTMENT OF THE ARMY
                             PROGRAM EXECUTIVE OITICE
                     SIMULATION. TRAINING AND INSTRUMENTATION
                              12350 RESEARCH I'ARKWAY
                                      ORLANDO. rL 32826-3276

SFAC-STRI-K                                                                 27 May 2010


ACQUISITION INSTRUCTION (AI) lll4

SlTR.JF.C.T:      Purchase R~qu~:;t (PR) Routing and Processing for Contract Actions


I. PURPOSE. The purpose oi'this AI is to delineate proccdu,·cs and intemal policies tor
acquisition purchase requests routed within the Program Ex~cutive Oftice lor Simulation.
Tmining and Instrumentation [PEO STRJ).

2. SCOPF.. Thi~ in~uuction applit:s to ~II PEO STRI government and support contractor
personnel responsible ror generating and processing requestS lor COI1\l1H;t actions 011 locally
awarded contructs. This AI supersedes Standard Operating Procedttre (SOP) 70-1-2 dmed 20
September 2004.

3. REFERENCES.

    a.    Deoarlmenl nfthc .-\mn Rc.,ulution CARl 5-I-I. \1anu~cmenl ufCuntructcd Advisory and
Assi~ttulcc- Service~


    h. I'Rwch Functimwl User"s Guide

    c.    PRw~b   User   Sdi'R~~islrntilm lnsLI'liCtions


4. DEFINITIONS.

    a.    Pun: base Request- The I'R is the principal document supporting the request for contract
action.

  b. Procurement Desktop Defense (PD2)- The contl-uct writing system to which Acguiline
PRweb im~rraces.

   c. Originator-The person assig.ned witl1in each Project Manager (PM) ollice/Oirectorate
with Lhc responsibility to create aPR for their orgJ11ization, assign the f'll number. ~nd ensure
prop~r routing or the I' lt.




                                                                 

ACQUISITION INSTRUCTION (AI) 014
SUBJECT: l'urchase Request Routing and Processing fur Cuutract Actions


    d. Program Group- The progmm group consist$ of the Originator. Contract Specialist.
,\ssoci:lle Chief of A"quisition Logislics nr I .ead Acquisilion Logistics Point of Contact (PO C),
Project Director (PD), and Chief Engineer (CE}.

   e. Funding Group - The timding group consists of Budget Atmlysts (BAs). Program
Anulysts (PAs}. and Certilying Orticials.

~-   POLJCY.

   a. PEO STRI personnel and suppmt contractors must use AcquiLine I'Rweb, a web-based
PR g~ner~tiu11 and routing application. to process all acquisition PRslprocurcment pockages
within I'EO STRL

    b. All corttracl actions require aPR processed in AcquiLine PRweb- including tio c ost
(Admin Mod) packaQes. All supporting documentation for tl1c actions being initiated shall be
attached to tile package to determine the appmpriate type and use of funds for the work to he
perfomted. A general list of recommended attachments for various types of conll'act actions is
provided as E11closure I. Th~ Procuring Contracting Officer (PCO) reserves the right to rcguest
less or additional documents as the situation dem:mds.

     NOTICE OF RESTRICTIONS; The following attachment types arc acceptable to be
uploaded and viewed in PRweb: Microsoft Word®(.doc or .ttt). Microsoft PowerPoint® (.ppt),
l'vlicrosoli Excel® (.xis). and Adobe Acrobatf&~ (.pdf) 3llachments. Documents created using
Microsoft Office 2007 must be sa,·ed in the ?7-2003 formnt in order to be uploaded to
PRwch. Documents saved in Microsoft Office 2007 formal (such as .docx, .xlsx, .pptx) are
not com1>alibiG with PRweb. Documems in format;; othet·than those listed above which at·e
required for the package >hould be converted to an ~cccptubl~ format and attached, if possible. If
a clocllmcnl cumtot be conv~rt~d. it must be emailcd to e ach .person in the routing chain. The
comhined file size ol'nll al!achtnents 011 aPR package must he less than two Megabytes iMB).

     c. t\11 documents shall be coordinated with !he PM ' s rcsponsibk lntegmted Pmjecl Team
( II'T) members aud Chief Engineer (<Is applic<tble) before a ttaching to the PR.

     d. Signiticnnt changes shall not be made to any ol' the origin~ I attached do cuments a iter
required reviewers have approved tile documems. In tbe ~vent change: are absalltle ly essential
pt·ior to mvard, direct co ordination and concunence with the I'D shall he obtnined .

ri. RE!iiJ>ONSIBILITIES. Eadt person in the PR routing dmin has the responsibility to
approve or ,·eject the transmitted PR. It is incumbent o tl the ol'iginator n rthe I'R to establish the
rouling list ns rcco111mcnded in Enclosure 2. together with the p~ t·son's area or   responsibility
(BA. PA. PD. ~t~:.) If~ I'R is re_jected. ralionnle shall be provided by the rejector in the
"Comments'' section ofthe approval window aod I he PR will he returned to the originator. Upon
approval by each pcr~on in the routing. the I'R is routed to the next person on the routing list i·or
<lflllroval!rejectiun. When a pproving, cYcry approver must identify in tile "Co mments" section      or
the appt·oval window the capacity in which he/she is ~pptnving (i.e., Contract Specialist


                                                  2




                                                                   

ACQliiSITJON      INSTRUCTIO~        (AI) 014
SUB,JECT: Purchase Request Routing ~mll'ru~~~sing for Contract Actions


approvaL PA approval. etc.). All PR5 will be processed in accordance with (lAW) the !ollowing
sequence to the ma~imum e~rent ro~~ihle: however additional reviewers may be incorpomleu in
the routing as necessary based upon originating oftice policy or PD direction:

    a. The II'T/PD assembles all required informatiun/documenlution and coordinates with the
originator who prepares the PR :md assi!lns the I'R Number lAW Enclostrre ~and the established
format of the respective PM office.

   b. The- orig.inatoL or othe-r ind ividual dcsignuted b)' the origjnating nrganlzation, enters the
Description, Additional Description (as applh:uble). Defense Priorities and Allocation System
(DPAS) Rating (if applicable). T)•pc of Action, and Line Item infm·matian to include Contruct
I .inc Item Number (CLIN) I Sub-Line Item Number (SUN) info. CLIN Des~riptions. Estimated
CLIN Cost. Unit ollssue. Period of l'erfol'mance/Delivei'Y Date. and Shipping Information.
CLIN it1formation should be coordinuted with the Contract Specialist prior to PR creation. The
originator shall also ensure the applicable wntract number (including order number as
applicable) is specified within the I'R. The originator is •·esponsible for uploading all applicable
attachments. The originntor ensures the PR includes accurate and complete information and then
initiate~ the routing process.


    c. The Associate Chief of Acquisition Logistics or Lead Acqt1isition Logistics l'OC reviews
the PR to ensure it contains ~1e correct logistical support documentation for the planned contract
action and approves or rejects the I'R.

   d. The PO reviews the PR La verify nll npplicnble documents (to include Contract Data
Rcquircmetlls Lists (CDRLs), lndq)endent Government Cost Estimate (IGCE), technical
documents. etc.) are attached to the PR or that applicable documents have heen lorwarded vi~
email to the contract specialist. confers program ortlce authorization oftl1e contract action, and
approves or rejects the PR.

    ~. The CE. perfor111ing the role of Standards Executive. reviews t11e package to verify
technical documents such as the Statement of Work (SOW). Pcrfonnnnce Specifications, and
CDRLs identified rur use in the contract action wnli.mn to applicable local and Service level
policies and have undergone required coordination/approval.

    f. The Cuntr~ct Spe<.:ialisl reviews the PR to ensure it contains the informal ion necessary to
complete the contract action. verifi~s the Contract N11mber and CLIN information. and approY~s
or rejects the PR.

    g. The l'A checks ihe PR for appropriation, time. purpo•e, and amoutl! in prevent any misuse
of funds: enters the approprinte Progmm .lob Order Number (JON). Element or Resource (EOR).
ami DOD Actil'ity Address Code (DODAAC) in the "Commel1!s'' sedionlor the BA: reviews
the PR to ensure it includes the correct data: and approves or rejects the PR for continued
nHiting.




                                                  3




                                                                   

ACQUISITION INSTRUCTION (AI) 01-1
SUBJECT: l'urchas~ Request Routing and Processing fur Contract Actions


     h. The BA e11ters the arpmpriatc linc(s) of accounting. JON. and funding amount in the
··Lin~ Item Detail Funding" section based on the infom1ation provided by the PA; checks thut
ltmd~ lire appropriate 10.. the allotmcnt(s) provided and uvuilable balances are sufficient to cover
the estimated cost ol"thc procurement; and approves or rejects the PR. If EOR code 2511 thru
2516 is assig11cd. the 13A coordinat~s with the Acquisition Center Division Chkrsupporting the
or..,tnnizational element to obtain gl1idance on complying with the requirements of AR 5-14.
J\dditionally. under no circumslanc~s should the EOR 25FB be used on a contract action.

    i. The Ccnifying Offi~ial r~views the J>l{, certilies runds arc available and appropriate for
usc in fullillm~nt of the requested procurement, and approves or rejects the PR.

   j. The PCO receive> and review; the PR in PD2 to ensure it includes correct data.
appropriate attachments. and proper approvals prior to workload assigning to a Contract
Specialist for execution.

   k. The Contract Specialist prepares the contmct action for award and disuibmes electronic
copies of the signed a ward document to the PD. P.<\, nnd BA, uta minimum. For contract
modifications. the applicable PR numb~rs >hould be specified within the modification for PA/BA
tracking purposes.

7. PROCESS.

    a. The PR originator creates the PR and inputs/attaches the infornlation associated w ith
originator ns idcntilicd in pawgraph 6.b. The PR shall be numbered lAW Enclosu1·e 3 and th~
cs!ahli~hcd format of the respective PM ofrice. The urigi~alor then selects the names of the
fimctional representatives who will be included in the routing list as recommended in F.ndosure
2: however. originators may modify the routing sequence n,;d/or list depending on the nature of
th~ PR. Fur e;:xampl~. incr~mental l'tmding pa~kages may not require routi11g thmugh the
Acquisition Logisticiatt orCE. However. all PRsmust be routed through the PA, BA, and
Certifying Oflicial. nt a minimum. H':hc originator is not a member of the IPT tor the specitic
a~:tion he/sh• should have the individual request in!; the package identify the requisite individuals
(e.g .. PCO. Contrnct Specialist. PA, etc.) lot· tuuting purposes. n1c originator incorpurHt<;::>
additional rcvicwc,·s in ;l1c routing as necess,Jry based upon originating office policy or PO
direction. The originator then co1nplctcs the I'R and initintcs the review and approval/rejection
process.

    b. Upon receipt of a PR by those identilicd in the routing. indivicluuls e.~eCllle their review
responsibilirics as idemified in paragraphs 6.~. through 6.j. und either approve orr~:ject the PR.

    c. l:'additiou"ll'tmding is needed on the PR ~ncr Certifying Official review and approval.
1he PH. should he relllrncd to PRweb for n:-ruuting through t11c P1\ wi1l1 a note explaining the
rationale fer the nc~"<..cd chm;gc. The same pl'occdut·c accomplished in pRrngraph 6.g. above wil l
occLLr~mJ the PR will then be ro-routcd to the BA ond Cerli l)'ing Oflicinl for compliance with
the requircm~nts oi'6.h. and 6.i. After Ce1tifying Official approval. tl1e PR will be



                                                  4




                                                                  

ACQl ' ISITION INSTitliCTION (,.\Jl UJ.t
S\ 'll.IECT: l'mdt:t~c· RcquC>t Routing ml!l !'mccs~ing l(>r Contract .'\Ctions


rc,cnt lo I' f)~ i'ur \\Drkload a,signmclll h~·tltc I'CO. In lieu <tfre:urning the l'R to I'Rw~b. a
separate !'R containing tit~ additi<tnal funding may be utilized :nstcad at ;he J i ~cretion oi'thc
originatnr.

     d. \Vh~n pruec~~ing JJRs for funding modifi~ations requiring dcohligation. r~uli~nmcnt
{dt..'llhlig.a~l·~)ll
                ;md n;()b!ig~'lliun). and Line ur Accounting <LO,\) correcticms. PHwch docs not
al:t'" ~;cgutiYc hmJing amounts 10 be as>oci~h:d with <U1Y LOA on a CLlNiSLIN within the I'lL
 •\s such. I'Rs Ilw these t:pcs ui'actium simi I C<mtain ('LIN/SUNs with the an<:ctcd LOA hmdcd
i:1 the ~unnunt of$lJ_l)(J for 1hc dcobliga1ion. ren:11igallo;l ~:nd/or LOA con·ection. Tltco umoum w
be dct>bligatcdh-c<•hligateuicorrcctct! :uust he :<fl<!cilicd hy the !'AlBA wi1hi11 the description <>r
e:-;wndcd lkscription field of the CI.INiSUN. This is n:quirt!d to keep the PR from appearing I<l
he~~ n~\\" ~nmmilnll?lll          of funds (net        in.:re:t~l;!'   in t"undlng).

      '"·   l.ipon il\\"i.lnl of the ..:omract actin11.lh~: Clllltfw.:l
                                                                    . Spn.:lalis1 \Viii pnwiUt: a ~igm:ci
t.'l~clronic t.'tlp;.··._ ,,·,hl~ :1\.\'~lrd d(\CtJ1111.~nt
                                                    1() applicnble personnr..~l _

ll. (;0,\1.. The objccliYc              or this t\1 is lo insti!ut,· a consistent process fl>r routing Dlld appml'ing
I'R> "ithin I' EO S riU.

•!.   l'ROJ'Oi'E:\'T. l'r<1poncnt ror this instru~tit>n is the • • • • • • • • • • • • • • •
                           Tl1c propo111:m will review thi~ i!l~trltction hiemtially.

                                                                              \ /!1( r -,\
                                                                              I   j/ )\           \
                                                                       .IOSI/1'1~'/\,r ~iiU~:~~- Jk..
                                                                       Pcin$Jml Assi~IDnt Rcs~1siblc ft)(' Con11·uctin~
                                                                          J            · -- - -




                                                                                          

ACQUISITION INSTRUCTIO'I (AI) 01-'
SUB,JECT: Purchase Request Routing and Processing !'or Contract Actions


    l~ECOMMENDED         !'H. ATTACHMENTS FOH VARIOUSTYl'ESOFCONTRACT
                                           ACTIONS

A. 1\foclifications ~dding to the scope of the contract- Modifications that require a
proposal from the contructor before inclusion in the eontroct:

        -Funded PR (bnsed on anticipated cost of changed requirements or incremental funuing.
as applicabk)
        ·Copy of the Military Interdepartmental PUI·chase Request (MlPR) if customer funded
        -Notes to Negotiator explaining what the mod is to accomplish within the contract
        - Customcr/PD Request for Action
        -Revised Performance Work Statement (PWS)ISUW
        -Revised Pcrfonnancc Spccitication. ifrcquir<:d
        -Sole Source Justification/ Exception to I'air Opponunity (EFO). if required
        - IGCE suppot1ing the additional requirements of the PWS/SUW/Specificarion
        -New/Revised CDRLs to support the added wor·k. if required
        - Ncw!Rcv i s~d Period Perfomrance {POP) 1o suppurt th~ mldcd work. if required
        -New/Revised Quality Assurance Survei llance Plan (QASI'). irreguire:f
        -List of Delivernblcs
        - Rnised Department of Delense Contract Security Classification Specification
( DD254 ). ir applicable
        -Revised Acquisition Plan (AP), Army Services Strategy Panel Review (ASSP). Service
:\cquisitiotl Stmte_gy (SAS). as required

B. Modificatiou changing the existing scope of the contract: Clrangc Orders­
Modifications that do not require a proposal from the contractor before inclusion in the
l:()lltra~t:


         · l'undcd PR l>nsed on nnticipnted cost of changed requirements. if any
         -Copy of the 1viii'R if customer funded
         -Notes to Negorintm explaining what changes to the basic scope are to be accomplished
         • Revised PWS
         -Revised CDRLs. if required
         - Revised POP. if required
         - Revised QASJl. if requir·ed
         · Revised DD254. if applicable
         • Cu~tomer request ror action. if a customer program

C. :\'lo<lified Period of Performance/Deliver)' Date- No Cost:

       · Unfunded PR
       . Notes to Negotiator with the new POP irrlo. aiT"ectcd CLIN/SLINs and the rationale tor
lhc change
       . .lu~tificatiotl for a no-cost extension
       . (\t~tomcr request ror uction (including copy or MlPR). if a customer program
                                                6
                                                                                 Enclosure 1




                                                               

ACQL'I~JTION  INSTRUCTION (AI) 014
SUB.IECT: Purchase Request Routing and Processing for Contract Actions


      RECOMMENDED PR ATTACHMENTS FOR Y.<\RIOlS TYPES OF CONTRACT
                          At: I'IONS (CONT'n)

1),   Incremental   ~·untling   Action:

         - rund~d I'R for the amount of funding to be added
         -COp)· o1'1he MIPR. if customer funded
         - Notes to Negotiator advising what CLit\(s) to add funding to and how long it is
e~ pee ted to cover


E. Administrative Contmct Action:

       -Unfunded PR (including De-obligation/Rc-obligation same amount octions (no net
increase or dec t·ease in ohligmed amount of the contract)). If~ realignment of customer funds,
include copy of MIPR.
        ·Notes to Negotiator e~plaining what administrative action is to be taken and why (what
amount is 10 he decreased from which CLIN and which CUN is to b~ increased using those
sume decreased hinds)
       -In the cvont changes are voluminous, provide an attachment listing all "from"l''to"
change> required
       - Contracting Officer Representative {COR) Nnminatinn Memorandum for dL"Signatiunol'
n new COR under the contract, if required

F. New Contract/D.O.rr.o ..J\('tion:

         · funded I'R (based on nnticipatcd cost from IGCE or incremental funding, as applicable)
         -Copy or theM IPR if customer funded
         - I'WSISOO/Spccification. etc.
         -IGCE
         -.'\SSP. S.<\S. AP. as required
         · Sole Source Justitkation (.hmificntion & ApprO\'ai/EFO, as required)
         - CDRLs
         - DD254. if required
         -List ofGovernmenl F111't1ished Propeny (GFP)I Government Furnisl1ed lnl'ormation
iGI'I). il'required
         - QA5P. if required
         -Market Research documental ion
         - List of Deliverubles
         -COR Nomination ivkmorandum. if required




                                                 7
                                                                                   Enclosttre I




                                                                 

       ACQUISITION INSTRUCTIOI\ (AI) 01~
       SUB.JECT: P~ rchase R~que~t Routiag ~ml Pru~essing for CtJntract Actions


             PURCHASE REQUEST ROUTING ORDER AND FUNCfiONS SUMMARY

                    "*Appmvct' am>t identify the cupucity in which l1c/she is nppmving••

            Fundiunal                                    PRweb Functions
         Rcprcs~ntuth•c
       Purchusc Request        Assigns the PR Number in accordance with established format, enters
          Originator           the Description. Additional Description (as applicable). DPAS Priority
                               Rating (if applicable). Type of Action, and Line Item information to
                               include CLIN :\timbers. CLIN Descriptions, Estimated CLIN Cost.
                               Unit of Issue. Period of Performance/Delivery Date and Shipping
                               lnfonnation (CLJN information should be coordinated with the
I
                               Conh·acr Specialist). Specities the contract number lor which the f>R is
                               bei tt g created in the "Comments" section of the PR. Uploads oil
                               applicable attachments. Initiates routing process (to inclutl~ the
                               appropriate PD2 User/Contracting Officer for execution).
     Acqui~ition   Logistics   Enstlt'CS correct logistical support documcms arc attached to the PR.
                               R~vi~w~ ami approvcslr~iects tilL: PR.
        Project Director       Ensures all applicable documentation, CDRLS.IGCE. etc. are attacl1ed
                               to the PR. Reviews and approves/rejects the PR.
        Clricf Engineer        Ensttres technical documents adhere to applicable policies and have
                               been coordinated/approved. Rev io;ws nnd approves/rejects the PK.
      Contrnct Specialist      Reviews PR for information requit-ed to award, verifies estimated
                               contract award date. CLIN layout/a~cura~ y. R~v iews a11d
                               approves/rejects the PR.
       Progrum .<\nulyst       Checb for ptn-posc/timc/oppt·opriation to prevent rnisusc of l\.tnds.
                               Emers JON lor BA. R~ v i~w~ and appmv~>lreit:et~ the PR.
        Budget An~l)·st        Checks availabi lity and appropt·iateness of lunds; enters Ute Line of
                               Accounting infm·mntion nnd ft~ndcd <U1lOllllts: obtains coordination
                               with Acquisition C~nltr Division Chiefs regarding EORs 2511 through
                               2516. Follows Acquisition Center Division Chiefs guidance regm·ding
                               AR 5-1'1. Reviews and upproves/rcje~t~_t!le PR,       . . . ....
      Certifying Official      Re,·ie•\s the PR: certilies ltmus availability/appmpriatcnc~s uml
                               npproveslrejecls the PR.

                                                           PD2 functions

    Contracting, Officer       Reviews PR lor correctness and ensures proper approvals have been
    (PCO)                      obtained; nJlprove~ til(: PR by workload as~igning to a Contruct
                               Specialist o1· rejects by rcturninu the I'R to PRwcb.




                                                     8
                                                                                        Enclosure 2




                                                                      

ACQt:ISITION INSTIWCT!ON {AI} 014
SUIJ,JECL Purchase Request Routing and l'rocessing for Contract Actions


                          PR NUMBERING FORMAT

The fi.J!luwing Jbrmat shall be used tbr all PRs:


     {DuDAAC)              (l'l\1   h.lcutifier)~   (fi5cal Year)    (So:qucutial Numllcr)
      "
          1
          lfi(IKI<                  XXX                 XX                  X---X


      CSG - Customer Support Group                      FFS- I'M l'uture Force
      TilE- PM TRADE                                    BOO- Business Operations
      ADL ·Joint ADL Cu-lab                             ITS- PM ITTS
      C:ON - PM ConSim                                  CAT-PMCATT
      ACQ- Acquisition Center                           OPS- PM Field OPS
      CIO- Corporate lnlormation OJ'Jice                PSG- Project Support Group


NOTES:

   l. A lour-digit PM ldentilier may be utilized as nco:ded by specilic ]>M ofTices
   2. The complete PR nu111bcr may not exceed 24 digits




                                                    9
                                                                                   Enclosure 3




                                                                    

Defense Contract Audit Agency Comments





      lEtA                                      NORTHEASTERN REGION
                                              DEFENSE CONTAACT AUDIT AGENCY
                                                  D€PARTMENT OF DEFENSE


      ~
                                                 59 LOWES WAY, SVITE 300
                                             LOWELl, MASSACHUSETTS 01851-5150
      IN AEN,.V R(f£A TO:

      RD-2 225.2.8                                                              June 29, 2012

      MEMORANDUM FOR THE ASSISTANT INSPECTOR GENERAL FOR ACQUISITION
                     AND CONTRACT MANAGEMENT, OFFICE OF THE
                     INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

      ATIENTION:
                            Acquisition and Contract Management

      SUBJECT: Response to Department of Defense Office of Inspector General (DoDIG)
               Draft Report Titled . Improved Oversight, but No Invoice Reviews and
               Potential Antideficiency Act Violation May Have Occurred on the Kuwait
               Observer Controller Team Task Orders; Project No. D2011-DOOOAS-
               0287.000

             Thank you for the opportunity to respond to the subject draft report, Improved
      Oversight, but No Invoice Reviews and Potential Antideficiency Act Violation May Have
      Occurred on the Kuwait Observer Controller Team Task Orders. We appreciate the
      opportunity you have afforded us to provide preliminary/factual commentary on your
      draft report dated May 30. 2012. The following are DCAA's comments and responses
      to each of the recommendations impacting DCAA:

             In you r draft report dated May 30, 2012, you state, "Additionally, at the time of
      our review, Defense Contract Audit Agency (DCAA) had not yet audited the costs
      claimed on interim invoices because DCAA had not performed an incurred cost audit of
      the contractor since 2005. As a result, PEO STRI paid approximately $70,000 in
      questioned direct travel costs and may be paying for other unreasonable and
      unallowable supplies and services on KOCT task orders." We concur that DCAA has
      not audited incurred costs since the 2005 incurred cost audit. However. there is no
      direct relationship between payment on interim vouchers and incurred cost audits.
      Interim vouchers are paid as services or supplies are rendered by the contractor;
      incurred cost audits are performed after completion of the contractor's fiscal year has
      ended and an incurred cost submission is completed by the contractor (usually six
      months after the fiscal year has ended). The completion of an incurred cost audit would
      not have prevented the payment of unallowable cost on interim invoices, as payment
      would have occurred well in advance of the incurred cost audit.




                                                                  

RD-2 225.2.8                                                      June 29, 2012
SUBJECT: Response to Department of Defense Office of Inspector General (DoDIG)
          Draft Report Titled , Improved Oversight, but No Invoice Reviews and
          Potential Antideficiency Act Violation May Have Occurred on the Kuwait
          Observer Controller Team Task Orders; Project No. D2011 -DOOOAS-
          0287.000

      Specific Do DIG recommendations and DCAA comments follow:

      DoD 1/G Recommendations: A.2. ''We recommend that the Resident Auditor,
Raytheon Network Centric Systems Resident Office, Defense Contract Audit Agency:

             a. Coordinate with the U.S. Army Program Executive Office for
             Simulation, Training, and Instrumentation contracting officer to develop
             and implement effective procedures to review cost vouchers submitted
             under contract W900KK-07-D-0001 and associated task orders to verify
             that the Army does not continue to reimburse the contractor for potentially
             unallowable direct costs.

             b. Include direct travel costs as a high risk area when reviewing cost
             vouchers on contracts awarded to Raytheon Technical Services
             Company."

      DCAA Response to DoDIG Recommendation A.2.a. and A.2.b.

      A.2.a. Partially Concur. We concur to reviewing direct travel costs on contract
      W900KK-07-D-000 1 and associated task orders to verify that the Army does not
      continue to reimburse the contractor for potentially unallowable costs. However,
      we do not feel a review of individual cost vouchers is the most effective way to
      accomplish this effort. Doing so would cause untimely review cycles and not
      allow for payment to the contractor in a timely manner. Rather, the Resident
      Auditor, Integrated Defense Systems Resident Office (responsible for the RTSC
      incurred cost audit), will establish an incurred cost support package for FY 2011
      to test direct travel costs. The contractor will be submitting their final FY 2011
      Incurred Cost claim as of June 30, 2012. We will use this submission to draw a
      sample of direct travel costs to test for compliance with FAR 31 and contract
      terms. A lthough the FY 2011 incurred cost audit will not be started until a future
      period, the field office will establish an assignment now to test for direct travel,
      and subsequently use that testing to support the FY 2011 incurred cost audit
      opinion. The audit office will coordinate with PEO-STRI prior to commencement
      of the audit as well as brief KOCT task orders to identify any contract terms
      related to direct travel. Issues identified in the direct cost testing will be brought
      to the attention of PEO-STRI, and DCAA will issue Form 1s for any billed
      unallowable direct costs.


                                            2




                                                         

RD-2 225.2.8                                                      June 29, 2012
SUBJECT: Response to Department of Defense Office of Inspector General (DoDIG)
          Draft Report Titled, Improved Oversight, but No Invoice Reviews and
          Potential Antideficiency Act Violation May Have Occurred on the Kuwait
          Observer Controller Team Task Orders; Project No. D2011 -DOOOAS-
          0287.000

      A.2.b. Partially concur. See A.2.a response above. Additionally, the
      assessment of direct travel cost as high risk will be made once the auditor(s)
      have completed testing procedures to determine the allowability, allocability, and
      reasonableness of the costs. The IG finding on one voucher does not provide
      enough evidence to assess the costs as high risk. However, if audit testing
      proves that the contractor has billed signifil-ant unallowable direct travel costs,
      the auditor will assess the travel cost as high risk.

       DoD 1/G Recommendations: A.J. "We recommend that the Resident Auditor,
Raytheon Integrated Defense Systems Resident Office, Defense Contract Audit
Agency, consider direct travel costs as a high risk area when planning and performing
audit assignments on Raytheon Technical Services Company."

      DCAA Response to DoDIG Recommendation A.3.

      A.3. Partially concur. See A.2.b response above. A determination of direct
      travel risk will be made after the auditor(s) have completed testing procedures to
      determine the allowability, allocability, and reasonableness of the costs. If audit
      testing proves that the contractor has billed significant unallowable direct travel
      costs, the auditor will assess the travel cost as high risk.




- ·   Questions regarding this memorandum should be directed to the undersigned at




                                   ~f.~
                                        Ronald C. Meldonian      (
                                        Reg ional Director

Copy furnished:
  HQs, P
  HQs, DX
  DRD-2
  RAME-2
  2801




                                           3




                                                       

